r

,ta

cm

fAA A A

(i&U1 :

IN THE
SUPREME COURT OF THE UNITED STATES

JULIO SOLANO

— PETITIONER

(Your Name)
vs.

STATE OF CALIFORNIA

L L FT a M T ii [ T:
Yu L a a m; i:j ij V:

i

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

FILED
APR I 6 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

CALIFORNIA COURT OF APPEAL. SECOND APPELLATE DISTRICT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

JULIO SOLANO
(Your Name)
P.O. Box 8457 (A2-150)
(Address)
Lancaster, California 93539-8457
(City, State, Zip Code)

N/A
(Phone Number)

ad

QUESTION(S) PRESENTED

1 .

Whether the California Courts failure to adequate­
ly instruct the jury on provocation in the context
of Second Degree Murder violated federal due process?

2.

Whether prosecutorial misconduct in mis-stating the
law on provocation in the context of heat of passion
voluntary manslaughter violated federal due1 process?

3.

Whether insufficient evidence supported Petitioner's
conviction of deliberate, premeditated murder?

i.

LIST OF PARTIES

[X] All pai ties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all paities to the proceeding in the court whose jud°:ment is the subiect of this
petition is as follows:

ii.

TABLE OF CONTENTS
OPINIONS BELOW....
JURISDICTION.......

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE.........................................

4

REASONS FOR GRANTING THE WRIT.............
CONCLUSION........

9
20

INDEX TO APPENDICES
APPENDIX A

Decision of the California Court cof Appeal, Second
Appellate District, Division Three

APPENDIX B

Decision of The California Supreme Court Denying
discretionary review

APPENDIX C

California Criminal Jury Instructions

APPENDIX D
APPENDIX E
APPENDIX F

iii .

TABLE OF AUTHORITIES CITED
CASES

PAGE

California v. Trombetta (1984) 467 U.S. 479

12

Chapman v. California (1967) 386 U.S. 18

12,

13

In re Uinship (1970) 397 U.S. 358 ...................

17,

19

Oackson v. Virginia (1979) 443 U.S. 307

17,

19

Martinez v. Borg (9th . Cir. 1991 ) 937 F3d 422

12

People v. Adams (2014) 60 Cal.4th. 541

14

...

People v. Avila (2009) 46 Cal.4th. 680

9

People v. Bender (1945) 27 Cal.2d 164

17

People v. Beltran (2013) 56 Cal.4th. 935

10,

14

People v. Breverman (1998) 19 Cal.4th. 142

9

People v. Castillo (1997) 16 Cal.4th. 1009

11

People v. Cole (2004) 33 Cal.4th. 1158

14

People v. Elam (2001) 91 Cal.App.4th. 298

..........

6

People v. Harnandez (2010) 183 Cal.App.4th. 1327
People v. Oennings (2010) 50 Cal.4th 616

............

People v. Bones (2014) 223 Cal.App.4th. 995
People v. Lee (1999) 20 Cal.4th. 47

6,

9
11

...

5, 6

........................

9

People v. Linton (2013) 56 Cal.4th. 1146
People v. Mayfield (1 997) 14 Cal.4th. 1146

............

14

....

14

People v. Najera (2006) 138 Cal.App.4th. 212....

7,

14,

16

People v. Padilla (2002) 103 Cal.App.4th. 675

10

People v. Steele (2002) 27 Cal.4th. 1230

............

10

.................

9

People v. Wharton (1991) 53 Cal.3d 522
People v. Wolff (1964) 61

Cal.2d 795

iv.

17

TABLE OF AUTHORITIES CITED, continued
CASES

PAGE

People \j. Uooduard (2004) 166 Cal.App.4th. 821

12

People v. Valentine (1946) 28 Cal.2d 121

10

....

Strickland v. Washington (1984) 466 U.S. 668
United States v. Agurs (1976) 427 U.S. 97

...

14
14, 16

STATUTES AND RULES
California Penal Code Sections:
187(a)
667(a)(1)
667(b)-(i )

4
....................

4

........................

4

12022.53(b), (c) and (d)

4

1170.12(a)-(d)

................

4

..:..................

4

29800(a)(1)
OTHER

CALCRIM JURY INSTRUCTIONS
No. 520

5, 10

no. 521

5, 10

no. 522

5, 10, 11

no. 570

5, 7, 10, 11

v.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.'
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

_ to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition.and is
[ ] reported at
—; or,
[ ] has been designated for publication but is not yet. reported; or,
[ ] is unpublished.
[X] For cases from state courts:
The opinion of the highest state court to review the merits appeal's at
Appendix _J___to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the Califnrnia supro^p

appears at Appendix__B

to the petition and is

---- court

[ ] reported at _______
I or,
[ ] has been designated for publication but. is not yet. reported; or,
[x] is unpublished.
1.

to.

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied bv the United States Court of
Appeals on the following date:------------------------- -------, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on ___________ --------- (date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[x] For cases from state courts:
The date on which the highest state court decided my case was January 13 -U. 2021
A copy of that decision appears at Appendix B
~
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including--------------------_ (date) on_______
(date) in
Application' No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Sixth Amendment:
In ell criminal prosecutions, the accused shall enjoy the ripht
to a speedy and public trial, by an impartial jury of the State and
district uherein the crime shall have been committed, which district
shall have been oreuiously ascertained by law, and to be informed of
the nature and cause of the accusation; to be'confronted with the
witnesses against him; to have compulsory process for obtaining wit­
nesses in his favor, and to have the Assistance of Counsel for his
defense.
Fourteenth Amendment:
Section 1:
All persons born or naturslized in the United States,
and subject to the jurisdiction thereof, are citizens of the United
States and of the State uherein they reside. No State shall make or
enforce any law which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State deprive any per­
son of life, liberty, or property, without due process of law; nor
deny any person within its jurisdiction the equal protection of the
laws. ....

3.

STATEMENT OF THE CASE

Procedural History
Petitioner Julio Solano uas charged in an information with murder
(Penal Code §187(a), Count I), uith firearm use enhancements (P.C.§12022.53(b),(c) and (d)) and possession of a firearm by a convicted felon
(P.C. §29800(a)(1), Count II).

It uas further alleged that Petitioner

uas previously convicted of robbery which constituted both a serious
prior felony (P.C. §667(a)(l)) and a prior "strike" conviction (§§ 1170.
12(a)-(d)/667(b)-(i).) (1CT.104-108.) Petitioner pled guilty to posses­
sion of a firearm by a felon (§29800(a)(1)) and a jury subseguently
convicted him of first degree murder (P . C .'§ 1 8 7 (a ) ) uith true findings
that he personally discharged a firearm resulting in death (P.C.§12022.
53(b),(c) and (d)). (2CT.224-225, 321, 329; 2RT 2-5; 6RT.2111-2112.)
Petitioner admitted the prior conviction allegations,

He uas sentenced

to 75 years to life plus 5 years. (2CT.336-337 ;6RT.2120-2122 . )
On October 20, 2020, the California Court of Appeal affirmed
Petitioner's conviction and remanded for the trial court to consider
whether to strike the five-year prior serious felony. (See Appendix A
affixed hereto, page 29.)
Statement of The Facts
For Purposes of'this petition, Petitioner adopts the facts setfort h in the "Background" section of Appendix A, pages 2-1D, affixed
hereto and incorporated herein by reference,

Additional relevant facts

are set forth herein below, to wit:
Petitioner argued to the state courts that CALCRIM Nos. 522 and
570 did not adequately instruct the jury on the differences between the
4.

possible effects of provocation in the context of second degree murder and voluntary
manslaughter and that the court had a sua sponte duty to instruct on the technical
meaning and subjective test for provocation applicable to second degree murder. Pe­
titioner pointed out that nothing in CALCRIfl Nos. 522 and 570 indicate that the pro­
vocation in second degree murder is different from that in voluntary manslaughter
which applies an objective standard to the effect of the provocation on an ordinary
person of average disposition.

Based on the instruction given, Petitioner argued

the jury would not have known that a subjective test of provocation applied to second murder.

Because provocation, in the context of second degree murder, has a

technical and peculiar meaning, Petitioner argued that the trial court had a sua
sponte duty tp provide the jury with the definition which incorporates the subjec­
tive standard.
Relying on People v. Jones (2014) 223 Cal.App.4th 995, the state court of
appeal disagreed, finding that, because the jury received other instructions (CALCRI(vl Nos. 520, 522 and 570), it was informed that "a reduction of-murder to volun­
tary manslaughter requires more" than provocation that simply showed the absence
of premeditation and deliberation. (Appendix A, at p. 15.) Bones held that the in­
struction on provocation were not misleading merely because they failed to ex­
plicitly explain that the objective standard does not apply to reduce first degree
murder to second degree murder,

It found that CALCRIPI Nos. 521 and 522 jointly

instructed that provocation (the arousal of emotions) can give rise to a rash,
impulsive decision and this, in turn, shows premeditation and deliberation. (223
Cal.App.4th. at p. 999, 1000.) Bones found significant that CALCRIM No. 570 speci­
fied that its principles applied only in reducing murder to voluntary manslaughter
and a jury would thus not apply the "reasonab;e person" objective standard to se­
cond degree murder. (Bones, at p. 1001.)
5.

Petitioner argued Jones distinction from his case because Jones neither
raised nor addressed the trial court sua sponte duty to define provocation's tech­
nical meaning peculiar to the law.

Jones argued that the trial court had a duty to

give a "pinpoint instruction", a contention the appellate court rejected. (223 Cal.
App.4th. at p. 1001.)

Petitioner argued that Jones' finding did not relieve the

trial court of its sua sponte duty to define the technical legal term "provocation"
and that the deficiency in the appellate court's analysis uas it failure to explain
how the jury would have known that the difference in the meaning of provocation in
the two contexts related, not only to the amount of provocation, but the fact that
it consisted of an entirely different standard.
Relying on another state case, People v. Hernandez (2010) 183 Cal.App.4th
1327, 1334, the state appellate court also rejected Petitioner's contention that
provocation, in the context of second degree murder, has a technical meaning peculiar
to the law which requires the court to sua sponte instruct the jury on this defini­
tion. (Appendix A, at p. 15.)

Although recognizing the jury in Hernandez was not

instructed on voluntary manslaughter, the state appellate court dismissed this im­
portant distinction by stating "a word or phrase has a technical, legal meaning re­
quiring clarification only if it 'has a definition that differs from its nonlegal
meaning.

! !1

(Appendix A, p. 16, citing People v. Elam (2001) 91 Cal.App.4th 298, 306.)

Petitioner argued that, because Hernandez does not include any discussion of the sub­
jective standard of provocation in the contect of second degree murder and the ob­
jective standard of provocation in the context of voluntary manslaughter based on
heat of passion, it fails to support a conclusion that provocation in the context of
second degree murder does not have a technical meaning peculiar to the law.
In furtherance of his prosecutorial misconduct argument, Petitioner argued
that, while discussing provocation, in the context of voluntary manslaughter, the

6.

prosecutor stated "Even if he really was provoked, would a reasonable person have
reacted this way out of an ability to reason? It's preposterous.
to justify this cold blooded killing." (6(RT.1B77.)

It is not enough

Petitioner argued this was a

misstatement of the objective standard of provocation for voluntary manslaughter
and constituted prosecutorial misconduct because the relevant consideration was
whether the provocation was sufficient to cause an ordinary person of average dispo­
sition to act rashly and without deliberation, not how the killer responded to the
provocation, as the reasonableness of the response is irrelevant under California
law. (People v. Najera (2006) 138 Cal.flpp.4th.212, 223.)

Petitioner also argued

the prosecutor committed misconduct during rebuttal argument by again misstating
the law on provocation for voluntary manslaughter.
The state appellate court found the prosecutorial misconduct claim forfeit­
ed by trial counsel's failure to object and request a curative instruction. But,
in addressing a claim that counsel's failures to object and seek an instruction
was IflC, the appellate court ruled that it was "not reasonably probable that absent
the prosecutor's remarks, the jury would hot have found' Petitioner guilty of First
Degree murder." (Appendix A, p. 19.) The court noted the prosecutor's

heat of pas­

sion, voluntary manslaughter arguments focused on the elements described in CALCRIFl
No. 570 and correctly emphasized the evidence did not show a provocative act by the
victim adequate to cause a reasonable person to act out of intense emotion and not
reason. (Appendix A, at p. 18.) The court also stated the jury was also properly
instructed on the applicable objective standard and to follow the court's instructions if counsels

comments conflicted therewith. (Appendix A at p. 19.)

Petitioner argued the evidence was insufficient to support the First Degree
murder verdict as to deliberation and premeditation. He argued there was no evidence
of planning, no evidence of behavior indicating a preconceived design and only some

7.

evidence suggesting motive,

The victim appeared unannounced at his home to take the

children on a day they were suppose to remain with Petitioner. An argument ensued.
Petitioner argued the evidence established he shot and killed the victim as a re­
sult of sudden provocations caused by her.

The State appellate court disagreed

and concluded that Petitioner had enough time to premeditate and deliberate — both
of which can occur quickly — when he armed himself and followed the victim outside,
argued with her, interacted with her companions, and then shot her three times. (Ap­
pendix at pp. 27-28.)

8.

REASONS FOR GRANTING THE PETITION

I.

The Failure To Adequately Instruct The Jury On Provocation In
The Context of Second Degree Murder Violated Federal And State
Constitutional Rights

Petitionar contends that his federal and state constitutional rights to
due process uas violated by the state courts

failure to adequately instruct the

jury on provocation in the context of second degree murder.

The instructional'

error uas not harmless and requires reversal of the conviction
for First Degree
conviction.
A.. CALIFORNIA LAU PERTAINING TO PROVOCATION BASED HOMICIDES
Under California lau, the provocation inciting in a person a heat of passion resulting in homicidial conduct must be caused by the victim, or must be conduct reasonably believed by the defendant to have been engaged in by the victim.
(See People v. Lee (1999) 20 Cal.4th. 47, 59.) No particular type of provocation is
required and, other than revenge, the passion, that is aroused can be any type of
violent, intense, enthusiastic or high-urought emotion experienced during a single
incident or over a period of time. (See People v, Breverman (1998) 19 Cal.4th.
142,
163; People v. Uharton (1991) 53 Cal.3d 522, 569.) California lau makes provocation
relevant in tuo uays. Firstly, if the provocation causes
"an ordinarily reasonable
person under the given facts and circumstances" to act rashly and uithout due reflec­
tion, then the crime committed is voluntary manslaughter rather than murder.

Second-

ly, if the provocation does not cause an average person to experience deadly passion
but precludes him or her from subjectively deliberating and premeditating, then the
crime committed is second degree murder. (See, respectively, People v. Avila (2009)
46 Cal.4th. 680, 705; People v. Hernandez. supra, 183 Cal.App.4th. 1327, 1332.)
In voluntary manslaughter cases, the relevant consideration is provocation's

9.

effect on an ordinary person of average disposition. (See People v. Beltran (2013)
56 Cal.4th. 935, 946-948.)

The test for whether provocation or heat of passion

negates malice, thus mitigating murder down to voluntary manslaughter, is an ob­
jective test. (People v. Steele (2002) 27 Cal.4th. 1230, 1254.)

Provocation insuf­

ficient to reduce murder to manslaughter may nevertheless "raise reasonable doubt
that the defendant formed the intent to kill upon, and carried it out after, deli­
beration and premeditation." People v. Valentine (1946) 28 Cal.2d' 121, 132.) The
test for whether provocation or heat of passion can negate deliberation and preme­
ditation, thus reducing first degree to second degree murder, is a subjective one.
People v. Padilla, supra, 103 Cal.flpp.4th. at p. 678.)
The prosecution charged first degree murder and the jury was instructed on
1st. and 2d degree murder (CALCRIM 520); first degree murder (CALCRIM 521); the ef­
fect of provocation on murder (CALCRIM 522); and voluntary manslaughter based on
heat of passion (.CALCRIM 570). (1CT. 1-2; 2CT. 309-311; 6RT. 1829-1834.) Uhile ade­
quately describing provocation concerning voluntary manslaughter, the instructions
did not correctly nor adequately describe provocation in the case of second degree
murder. CALCRIM 522 state that provocation may reduce first degree murder to second
degree murder or manslaughter and implies that the standard for both is the same,
differing only in the amount of provocation required. This instructional error was
reinforced by by CALCRIM 570 defining provocation in terms of its effect on "a per­
son of average disposition." and stating that a defendant "is not allowed to set up
his own standard of conduct." (1CT.1-2; 6RT. 1832-1834.)

Contrary to the instruc­

tions, a person is allowed to set up his own standard of conduct and to act even
when a person of average disposition would not.
Though the trial court had no duty to instruct on provocation pertaining
to second degree murder, in choosing to do so it had a duty to instruct on it ac10.

curately. (People v. Castillo (1997) 16 Cal.4th. 1009, 1015.) Moreover, when a
word or phrase has a technical meaning peculiar to the law that differs from its
ordinary meaning, the court has a sua sponte duty to clarify the meaning for the
jury. (People v. Oennings (2010) 50 Cal.4th. 616, 670.) Provocation, in the con­
text of second degree murder, has a technical meaning peculiar to the law.

Its

meaning, in this context, relates to the effect of the provocation rather than to
its nature, its impact on the defendant's subjective state of mind.

This meaning

differes from the ordinary definition of provocation in non-homicidal. matters re­
lating to the conduct that is the result of the provocation..
Because the jury is given the legal definition of provocation only in the
context of voluntary manslaughter, uithout an instruction on the technical and pe­
culiar legal meaning of provocation in^the context of second degree murder, it may
conclude that the defendant uas subjectively provoked but be unable to return a
verdict of second degree murder because it it believed the instructions required
it to measure provocation in terms of its impact on "aperson of average disposition"
rather than its impact on the defendant.

CALCRIM 522 instructs that provocation may

reduce murder from first degree to secon degree and may reduce murder to manslaugh­
ter, but it provides the jury with no definition of "provocation."

CALCRIM 570 de­

fines provocation as causing persons of average disposition to act rashly and uith­
out due deliberation — from passion rather than judgment — and that defendants may
not set up their oun standards.

Nothing in these tuo instructions indicate that

provocation in the context of murder is different than provocation in the context
of manslaughter and there is no reason to believe that the jury uould have coneluded that CALCRIM 570's definition of provocation did not apply to reducing the
crime

of murder to second degree murder.
Because, in the context of second degree murder under California lau, pro-

11.

vocation has a technical and peculiar legal meaning which differs from its meaning
in the context of voluntary manslaughter, the trial court had a sua sponte duty to
provide the jury with a definition of provocation applicable to second degree mur­
der as being based on a subjective rather than objective standard.
B.

THE INSTRUCTIONAL ERROR VIOLATES FEDERAL DUE PROCESS

An instruction on provocation reducing murder from first to second degree
"explains or highlights a defense theory." (People v. Mayfield (1997) 14 Cal.4th.
668, 778.)

The right to present a defense is an essential component of the federal

guarantee of due process of law. (See People v. Woodward (2004) 166 Cal.App.4th.
821, 834.)

The Due Process Clause of the Fourteenth Amendment requires that a de­

fendant in a criminal case "be afforded a meaningful opportunity to present a com­
plete defense." (California v. Trombetta (1984) 467 U.S. 479, 485.) Lack of instruc­
tion on factors negating an element of the crime results in a due process violation
because the jury is thereby deprived of "the opportunity to find each element of the
crime beyond a reasonable doubt." (Martinez v. Borg (9th.Cir.1991) 937 F3d 422, 423425.)
Because the error alleged here implicates Petitioner's federal constitution­
al rights, it is judged under the standard of Chapman v. California (1967) 386 U.S.
18, 24.

Error is presumed to require reversal unless the "beneficiary of a consti-

tutional error ... prove[s] beyond a reasonable doubt that the error complained of
did not contribute to the verdict obtained." (ibid.)

The state cannot meet this

high burden.
The evidence established that Petitioner and the victim were having marital
problems and separated in February of 2012. (2RT. 630, 767; 4RT. 1335-1336.) On the
day of the crime, they had been arguing over the telephone and Petitioner was es­
pecially up set that a 17 year old boy had moved in with the victim and her family.

12.

Lindsay, the victim, along with their daughter, Lizette, and a friend, Ottis, drove
to Petitioner's residence to try to take their two children, even though it uas Pe­
titioner's custodial time uith them. (RT 631, 634, 702, 717, 742-744, 1383-1384,
1400.)

Petitioner and Lindsay got into an argument after he refused to allow her

to take the children.

He told her to leave and she responded uith threatening

uords. (RT 779, 782-783, 932.)

They continued arguing and Petitioner fired shots

striking Lindsay three times. (RT. 659, 783-785; 1339.)
Based on this evidence, the jury could have concluded that Petitioner was
subjective provoked and acted in response but that a reasonable person would not
have been provoked.

The jury may also have believed that the subjective provoca­

tion was irrelevant, based on the instructions, because it only applied when it
would have caused an ordinary person of average disposition to become provoked.
The absence of instruction properly defining provocation in the context of second
degree murder prevented the jury from correctly understanding why the charged of­
fense might have been second degree murder.

The instructional error uas, there­

fore, not harmless beyond a reasonable doubt, thus requiring reversal of Petition­
er's first degree murder conviction under Chapman (386 U.S. at p. 24.)
II.

The Prosecutor Committed Misconduct By Misstating The Law On Provocation
In The Context Of Heat Of Passion Voluntary Manslaughter
The prosecutor committed misconduct during his arguments to the jury by

misstating the law on provocation in the context of voluntary manslaughter based on
heat of passion.

Although he properly stated the objective standard applied, he

erroneously told the jury it had to determine whether Petitioner's response to the
provocation uas reasonable.

Petitioner uas thus denied his federal and state con­

stitutional right to counsel because his attorney failed to object and request an
admonition.

Because it is reasonably probable that, absent the prosecutor s re-

13.

marks, Petitioner mould not have been convicted of first degree murder, reversal of
his first degree murder conviction is required.
1 .

APPLICABLE LAU

A prosecutor's misconduct violates the Due Process Clause of the Fourteenth
Amendment when the resulting unfairness is "of sufficient significance to result in
the denial of the defendant's right to a fair trial.." (United States v. Aqurs (1976)
427 U.S. 97, 108; accord People v. Cole (2004) 33 Cal.4th. 1158, 1202.)

A prosecutor

who uses deceptive or rehensible methods to persuade either court or jury has com­
mitted misconduct under state lam (People v. Adams (2014) 60 Cal.4th. 541, 568.)

A

prosecutor commits misconduct mhen he or she misstates the lam and the jury applied
the misstatement in a may that renders the trial fundamentally unfair.
To preserve a claim of prosecutorial misconduct, the defendant must general­
ly make a timely objection and request an admonition to cure any harm. (People v. Lin­
ton (2013) 56 Cal.4th. 1146, 1205.)

A failure to do so mill be excused if doing ei­

ther mould have been futile, or if the harm mould not have been cured by an admoni­
tion. (People v. Cole, supra, 33 Cal.4th. at p. 1201.) A defendant has a federal con­
stitutional right to effective assistance of counsel. (U.S. Constitution, 6th., 14th.
Amendments; Strickland v. Washington (1984) 466 U.S. 668.)
2. Voluntary Manslaughter Based on Heat of Passion
"Manslaughter is the unlamful killing of a human being mithout malice,"
(Penal Code § 192.)

Voluntary manslaughter occurs "upon a sudden quarrel or heat of

passion." (Pen. Code § 192(a).)

In this context, the relevant consideration is the

effect of provocation on an ordinary person of average disposition. (People v. Bel­
tran, supra, 56 Cal.4th. 935, 946-948.)

Neither the killer's response to the pro­

vocation nor the reasonableness of the response is relevant to sudden quarrel or
heat of passion. (People v. Najera (2006) 138 Cal.App.4th. 212, 223 (Najera.)
14.

3.

THE PROSECUTOR COMMITTED MISCONDUCT, IN VIOLATION OF
FEDERAL DUE PROCESS, BY MISSTATING THE LAU ON THE
OBJECTIVE STANDARD FOR ASSESSING PROVOCATION IN THE '
CONTEXT OF VOLUNTARY MANSLAUGHTER

During his closing argument to the jury, the prosecutor stated, in address­
ing voluntary manslaughter based on heat of passion, the following, to wit:
A killing that occurs during a sudden quarrel or heat of passion.
This is defined in 570. It requires three things:
The provocative act. And the provocative act obscured the defendant's
reasoning such that he acted out of intense emotion and not out of reason,
and that there was an insufficient time to cool off.
Essentially, it's decreased from murder because the defendant in this
scenario didn't act really of his oun sort of calculated decision-making,
that he was provoked by something done by the victim. I want to knou,
uhat is the provocative act that occurred here?
I uould imagine that throughout the world these custodial issues are happen­
ing time and time again. Is that it? Is that all that it takes? That it
was his day, not hers, and that this caused him to be so provoked that it
obscured his judgment. You decide. You, the jury, decide to set the
standard. He does not get to set his own standard for provocation.
Even if he was really provoked, would a reasonable person have acted this
way out of an inability to reason? It's preposterous. It is not enough to
justify this cold-blooded killing.
****

So, when tou make those decisions, uhat that does is it knocks out the
manslaughter ....
(RT. 1876-1877.)
ment:

The prosecutor again addressed provocation in his rebuttal argu-

She [Lindsay] wanted the kids a day early. He is so provoked — yeah,
he is angry? Sure, he is angry. But so provoked by this, the nerve of
this woman, to say that a reasonable person couldn't act out of their oun rational
free will, couldn't take a breath and go, all right, I know you're upset, but you'
re not getting the kids back. Couldn't do that? Just saw red, had to pull out a gun
and shoot her four times. It's not reasonable. It could be in different scenarios,
but it isn't here.
(RT. 1991-1992.)
A prosecutor commits misconduct where, as here, he argues that the provocation
was not sufficient to reduce murder to voluntary manslaughter because a reasonable
15.

person in the defendant's situation would not have reacted in the same manner as the
defendant and killed someone. (Najera, 138 Cal.App,4th. at 223.)

In Najera, the pro­

secutor argued that provocation was not sufficient to reduce murder to manslaughter,
asking the jury: "Mould a reasonable person do what the defendant did? Would a rea­
sonable person be so aroused as to kill someone?

That's the standard." (ibid.) Like

the prosecutor here, the prosecutor in Najera "interspersed correct statements of the
lau with incorrect ones." (id. at p. 224.)

Najera found the prosecutor's argument

incorrect because murder is properly reduced to manslaughter "if the killer s reason
was obscured by a provocation sufficient to cause an ordinary person of average disposition to act rashly and without deliberation. (138 Cal.App.4th at p. 223.)

The

appropriate focus Is on the provocation and surrounding circumstances and their suf­
ficiency to cause a reasonable person to act rashly.

How the killer responded to

the provocation and the reasonableness of the response is not relevent to sudden
quarrel or heat of passion." (Najera, at p. 223.)
The prosecutor's misconduct requires reversal pf Petitioner's first degree murder conviction.

This was not a case where the evidence of first degree premeditat-

ed murder was overwhelming.

Based on the prosecutor's arguments, at least one juror

may have found that, although a reasonable person would have been provoked by Lind­
say's conduct prior to the shooting, such a person would not have acted in the same
way as Petitioner.

It is reasonably probable, therefore, that, if defense counsel

would have objected to the prosecutor's misconduct, Petitioner would have received'
a more favorable verdict.

Accordingly, reversal of Petitioner's first degree murder

conviction is required. (U.S. v. Aqurs, supra, 427 U.S. at 108.)
III.

The Evidence Was Insufficient To Establish That The Homicide Uas
Committed Willfully, Deliberately and With Premeditation

Petitioner was convicted of first degree premeditated murder.

16.

As argued to

the state courts

there uas insufficient evidence to establish that the murder uas

committed willfully, deliberately and with premeditation.

Petitioner's first degree

murder conviction, therefore, violates his federal constitutional right: to due pro­
cess and must be vacated. (U.S. Constitution, 14th. Amendment; Jackson v. Virginia
(1979) 443 U.S. 307, 319; In re Uinship (1970) 397 U.S. 358, 364.)
FIRST DEGREE PREMEDITATED MURDER
First and second degree murder are distinguished under California lau by the
presence or absence of premeditation and deliberation. (Penal Code § 189.) Under
state lau, "[t]he mere intent to kill is not the equivalent of a deliberate and pre­
meditated intent to kill." (People v. Bender (1945) 27 Cal.2d 164, 181.) Premedita­
tion and deliberation require "substantially more reflection ... than the mere
amount of thought necessary to form the intention to kill. (People v. Wolff (1964)
61 Cal.2d 795, 822.)
The prosecutor's theory of the case uas that Petitioner committed willful, de­
liberate and premeditated murder. (RT 1878-1881, 199401995.)
ed this theory.

No evidence support­

The prosecutor's argument to the jury ignored the fact that there

uas no evidence Petitioner had any knowledge that Lindsay uas going to show up at
his home on the day of the shooting — a strong indication the shooting uas not
planned.

There uas also substantial evidence of provocation in the record. (RT.

631, 634, 702, 717, 742-744, 779, 782-783, 907, 932, 1338-1385, 1400) and evidence
that Petitioner acted in imperfect self-defense of others. (RT. 782-783, 932, 941942, 952-953, 1574-1575.)
The evidence did not establish any planning activity by Petitioner.

No evi­

dence established his prior knouledge that Lindsay would come to his home on the
day of the shooting.

No evidence established the reason Petitioner uas armed nor

hou long he had a gun on his person.

The fact he uas armed with a gun did not
17.

evidence any plan or intent to kill anyone under the circumstances.

The evidence

merely established Petitioner was armed with a gun after the victim arrived and
tried to take the children a day before she was due to do so.

Lindsay and Peti­

tioner had been arguing on the phone earlier that day and were also involved in
a heated argument when Petitioner would not allow her to take the children on a
day he had custody. (RT. 659, 715-716, 766-767, 778-779, 782, 785

932, 1339, 14-

27.) Petitioner did not take out a gun and shoot Lindsay until after she had left
the house and started to come back a second time and threatened Petitioner by
saying "Uatch, you will see what's gonna happen. ... Uatch, motherfucker." (RT.
781-783, 906, 1339, 1354-1355.)

Petitioner did not threaten Lindsay or give any

indication of an intent or plan to shoot or kill her.

These fact show the crime

was not planned or premeditated.
There was insufficient evidence of motive.

The facts that Petitioner and

Lindsay were separated and not getting along, had argued over the phone earlier
in the day over the fact that a 17 year old boy had moved into her home and she
showed up unannounced at Petitioner's residence to try to take the children while
Petitioner still had custody of them were all insufficient to support a finding
of motive to commit premeditated murder.
No evidence suggested a preconceived design.
was ample evidence Petitioner was provoked.
observed Petitioner fire the first shot.

As previously discussed, there

There was no testimony that anyone

He was observed on the driveway when

he fired the second and third shot. (RT. 273-275, 1339, 1355.)

There was no evidence

regarding Petitioner's distance from the victim at the time he fired any of the 3
shots.

Nor did the prosecution establish how much time passed between each of the

shots, but the evidence suggested the second and third shots were fired in rapid suc­
cession shortly after the first one.

There was no ecidence Petitioner stopped to
18.

v?

reload the weapon. Lindsay was shot in the arm, wrist and back and there was no
evidence Petitioner was aware that any of those shots would be fatal.

If Peti­

tioner had planned to kill Lindsay, it is likely that he would have shot her
before she first went back to the car rather than after she decided to go back
a second time to attempt to take the children.
Based on all the record evidence, it appears that Petitioner did not plan
to kill Lindsay, but rather, shot her as a result of his reaction to her actions
that day and their ensuing arguments,

Because the evidence failed to establish

that Petitioner acted willfully, deliberately and with premeditation, his first
degree murder conviction violates his constitutional rights to due process and
cannot stand. (U.S. Constitution, Jackson v. Virginia, supra, 443 U.S. at p. 319
In re Uinship, supra, 397 U.S. a p. 364.)

19.

1

CONCLUSION

The petition for a writ of certiorari should be granted.

R e sp e c tfu 1 ly sub mitt e d,
3
Julio Solano, petitioner pro se
Date: March

2021

2D.

